    	  
      Executive Summary
      Table of Contents




                          The
                          Postal Service
                          Customers
                          of the Future
      Methodology




                          RARC Report
Scenarios
 Future




                          Report Number
                          RARC-WP-14-014

                          September 29, 2014
Opportunities
Themes and




                                               Print
      Executive Summary
      Table of Contents




                          Executive                                    Change used to be generational, driven by slow-moving
                                                                       and predictable forces like demographic shifts. Now,
                                                                                                                                          3.	 Exploring needs and opportunities — identifying future
                                                                                                                                              customer needs and expectations, as well as potential
                          Summary                                      rapid technological innovation means that change is almost
                                                                       continuous and often unpredictable. For the U.S. Postal Service,
                                                                                                                                              opportunities for the Postal Service that could be further
                                                                                                                                              explored, based on the designed scenarios.
                                                                       this fast-paced environment requires positioning to meet the
                                                                       needs of its customers — small and medium businesses, large        The team facilitated scenario planning sessions that resulted
                                                                       enterprises, the government, and the individual consumers          in key insights related to future customer needs and potential
      Methodology




                                                                       they serve — as an uncertain future unfolds.                       Postal Service opportunities. Individual consumers in the future
                                                                                                                                          will expect superior customer service (e.g., convenience, instant
                                                                       To that end, the U.S. Postal Service Office of Inspector General   accessibility, and ease of use) tailored to their experiential
                                                                       (OIG) partnered with consulting firm Monitor Deloitte, using       preferences (e.g., personalization, collaborative goods and
                                                                       scenario planning to understand the needs and expectations         services, “smart” experiences). To maintain and expand their
                                                                       of the customers of the future, and how the Postal Service         current customer base, businesses will need to be particularly
                                                                       could effectively meet those changing needs. The team took         responsive to customers — targeting individuals or groups with
                                                                       a phased approach that included:                                   niche, tailored services that secure trust through, for example,
                                                                                                                                          responsible business practices and strategic partnerships.
                                                                       1.	 Researching trends — analyzing the potential paths
Scenarios




                                                                                                                                          The Postal Service is uniquely positioned to strategically
 Future




                                                                           of more than 80 emerging trends in technology, society,
                                                                                                                                          grow in core and adjacent products and services based
                                                                           and industry.
                                                                                                                                          on the following five pivot points: 1) customer access,
                                                                       2.	 Designing scenarios — based on hundreds of articles,           2) brand permission, 3) core strengths, 4) infrastructure, and
                                                                           projections for the more than 80 trends, and interviews with   5) supplier and partner synergies. Aligning these pivot points
                                                                           leading experts across Deloitte, constructing four scenarios   with the customer needs identified in the scenario exercise
                                                                           to represent varying ways in which the future might unfold     revealed dozens of new potential postal products and services
                                                                           over the next 5 to 10 years. Scenario planning is a common     that could facilitate communications and commerce. Specific
Opportunities




                                                                                                                                          opportunities include, for example, facilitating consumer-to-
Themes and




                                                                           methodology used to understand and explore possible
                                                                           futures by designing and evaluating hypothetical situations    consumer transactions of shared goods and streamlining
                                                                           based on different combinations of trends.                     government services in post offices. The Postal Service could
                                                                                                                                          also become a trusted service provider to collect “anonymous,”
                                                                                                                                          or aggregated, data for businesses about consumers.
                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                                  Print                                    1
      Executive Summary
                          Table of Contents                            Cover
                                                                       Executive Summary......................................................................................1
                                                                       Methodology..................................................................................................3
                                                                       Future Scenarios.........................................................................................10
                                                                        All Eyes on You......................................................................................... 11
                                                                        A Personal Touch......................................................................................16
                                                                        The In Crowd............................................................................................21
                                                                        From Our Family to Yours.........................................................................26
      Table of Contents




                                                                       Themes and Opportunities..........................................................................31
                                                                       Contact Information.....................................................................................36
      Methodology
Scenarios
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                             Print                      2
      Executive Summary
                          Methodology

                                                                       The team employed a three-phased approach to design scenarios which
                                                                       were used to determine potential future customer needs and expectations
      Table of Contents




                                                                         1                                       2                                               3
                                                                              Trends                                 Scenarios                                    Implications


                                                                         Researched and collected a list        Uncovered macro themes                         Facilitated a collaborative
                                                                          of potential trends from a variety      based on relationships                          design workshop where a
                                                                          of sources                              highlighted during the trend                    cross-section of OIG leaders
                                                                         Mapped trends to the STEEPI             mapping exercise                                 i) immersed themselves
      Methodology




                                                                          framework                              Prioritized critical uncertainties                    in trends,
                                                                                                                                                                   ii) anticipated emerging
                                                                          Social, Technological,                  from macro themes to develop
                                                                          Environmental, Economic,                four scenarios                                        customer needs, and
                                                                          Political, and Industry                                                                  iii) uncovered opportunities
                                                                                                                 Designed scenario narratives                          for the Postal Service to
                                                                         Categorized trends based                weaving driving forces and critical                   address customer needs
                                                                          on level of certainty                   uncertainties throughout                              and expectations
                                                                          Single-direction trends are driving
                                                                          forces while multidirectional                                                          Organized and aggregated
                                                                          are uncertainties                                                                       workshop outputs
Scenarios
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                        Print                                  3
      Executive Summary
                                        An “outside-in” approach was used to research trends from primary source
                                        documents, industry literature, and interviews with subject matter experts

                                                                Documentation Review                            Interviews with Experts
                                                     The team culled hundreds of articles,               The team conducted interviews with leading
      Table of Contents




                                                     trend projections, and publications to build        experts, including:
                                                     a comprehensive list of over 80 trends.
                                                     Particular sources of interest include:
                                                                                                        Peter Brown – Postal Legislative Affairs Expert
                                                                                                        Judy Cheng – Scenario Planning Expert
                                                      Deloitte Business, Human Capital and
                                                                                                       Bruce Chew, Ph.D. – Former Harvard Business
                                                      Technology Emerging Trends 2014
                                                                                                         School Professor and Strategy Expert
                                                      Deloitte annually conducts thorough trends
                                                      research and conducts surveys of business         Jonathan Copulsky – Author of Brand Resilience
                                                      leaders across government and Fortune              and contributor to The Wall Street Journal and
      Methodology




                                                      100 companies                                      The Financial Times
                                                                                                        Jesse Goldhammer, Ph.D. – Author of Four Futures
                                                      Articles from leading publications including
                                                     Harvard Business Review, Forbes, Fast
                                                                                                         for China and Scenario Planning Expert

                                                      Company, the Economist, the Atlantic,             Rod Sides – Retail and Distribution Practice Expert
                                                      and Business Week                                 Mark Urbanczyk – Technology and Crowdsourcing
                                                                                                         Expert
                                                      United Nations and
                                             
Scenarios




                                                      U.S. Census Bureau Databases                      Stacy Wang – Scenario Planning Expert
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                  Print                        4
      Executive Summary
                                         Initial activities focused on collecting emerging trends as these often serve
                                         as indicators for consumer preferences in rapidly evolving environments


                                                 The STEEPI (Social, Technological, Environmental,       Industry, social, and technological trends
                                                   Economic, Political, and Industry) framework         emerged as the primary factors impacting future
      Table of Contents




                                                   was used to categorize and organize trends                consumer needs and expectations


                                                                                                     INDUSTRY
                                                                       INDUSTRY   SOCIAL
                                                                                                     Industry trends are often responsive to social trends.
                                                                                                     In a consumer-driven world, industry and
                                                                                                     social trends are more tightly integrated than
                                                                                                     ever before.
      Methodology




                                                                                                     SOCIAL
                                                 POLITICAL                           TECHNOLOGICAL   Social trends include changes in demographics,
                                                                                                     cultural shifts, and, most notably, how individuals
                                                                                                     and groups interact with each other, businesses,
                                                                                                     and government. How these interactions evolve may
                                                                                                     be disruptive over the next 5 to 10 years.
Scenarios
 Future




                                                           ENVIRONMENTAL
                                                                                  ECONOMIC
                                                                                                     TECHNOLOGICAL
                                                                                                     Technological advancements are disruptive by nature.
                                                                                                     They further fuel social and industry trends, often
                                                                                                     determining the feasibility and speed at which
Opportunities




                                                                                                     industry and social trends become a reality.
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                              Print                           5
      Executive Summary

                                        An important part of the scenario planning process is categorizing
                                        trends into driving forces and critical uncertainties


                                                                                                                          CRITICAL
                                                                       DRIVING FORCES
                                                                                                                          UNCERTAINTIES
      Table of Contents




                                                  A trend that is evolving in a relatively certain,   A trend that may evolve in multiple   directions
                                                  single direction

                                                  Implication                                         Implication
      Methodology




                                                  Over the next 5 to 10 years, these trends           Over the next 5 to 10 years, these trends could
                                                  will likely continue along a distinct path          feasibly manifest in more than one direction


                                                  Examples include:                                   Examples include:
                                                      Visual craving                                    Working from home
                                                      Luxury for more consumers                         Local sourcing
                                                      Customization                                     Hiring locally
Scenarios
 Future




                                                      3D printing                                       Residual recession effects
                                                                                                         Eco-worriers
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                  Print                  6
      Executive Summary
                                          The team prioritized two critical uncertainty spectrums that form
                                          the basis for plausible and relevant scenarios


                                                                                                                                                  “The pursuit for customization makes
                                                                                Patterns of Mass Consumption
                                                                                                                                                    customers king in a marketplace
      Table of Contents




                                             Social Trend


                                                                                                                                                     dominated by innovation where
                                                                     Growing                                         Increasing                     personalization is now expected
                                                                    sharing and                                  customization and                           by everyone.”1
                                                                   collaboration                                   personalization
                                                                                                                                           “We are already able to tell a consumer when he’s
                                                              Does the power of many                            Does the demand for     walking to the park — we know his location — on a hot
                                                                                               Or
                                                               drive a change in how                             customization drive    day — we know what the weather is like there — where
                                                               customers consume?                              individual consumption    the nearest place is to buy a Magnum [ice cream] and
                                                                                                                      behavior?           send him a code for a discount. Just think of what we
                                                                                                                                                 might be able to do in 5 years’ time.”2
      Methodology




                                                                                 Consumer Brand Preferences                                       “As rivalry becomes more intense,
                                             Industry Trend




                                                                                                                                                both emerging giants and established
                                                                                                                                                players have much to learn from each
                                                                     Focus on                                     Desire for new,
                                                                                                                                                 other as they strive to become truly
                                                                    established,                                    untested                      world-class global organizations.”3
                                                                  trusted brands                                     brands
Scenarios
 Future




                                                                 Do known, trusted                              Do new, unknown             “I don’t see brands going away. It will be harder
                                                                                               Or
                                                              entities continue to build                       brands rapidly build       for new brands to get started — for all the Googles
                                                              credibility and dominate                          trust by filling new        and Facebooks, there are thousands of brands
                                                                 the market place?                              customer needs?                        that have never taken off.”4
Opportunities




                                           1.         Monitor Deloitte SME, Bruce Chew
Themes and




                                           2.         Unilever Chief Marketing and Communication Officer, Keith Weed
                                           3.         Deloitte Business Trends 2014
                                           4.         Monitor Deloitte SME and “Brand Resilience” Author, Jonathan Copulsky


                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                                 Print                            7
      Executive Summary
                                             The team designed scenarios that pushed the boundaries of critical
                                             uncertainties, and wove in driving forces to provide further context
                                             and relevant nuances
                                                                                                                  Focused on established,
                                                                                                                     trusted brands
                                                                       From Our Family to Yours                                                      All Eyes on You
      Table of Contents




                                                     This world is community-centric, forcing established                         This world is dominated by large brands catering to
                                                     companies to collaborate to retain consumers’ trust                         opinionated consumers who demand personalization
                                              Corporate Social                              Government       Democratization                        Partnerships &             Identity    Democratization
                                                                         Crowdsourcing                                             Big Data
                                               Responsibility                                Oversight        of Technology                          Acquisitions            Management     of Technology




                                                                  Social           Social Network                                                    Experience-              Changing
                                                                                                      Cyber Threats             Shifting Retail                                             Brand Loyalty
                                                                 Networks            Influence                                                         Based                  Regulatory
                                                                                                                                  Footprint                                                and Recognition
                                                                                                                                                    Segmentation             Environment
      Methodology




                                                                                                                                                                                          Increasing
                                                  Growing sharing
                                                                                                                                                                                       customization &
                                                  & collaboration
                                                                               The ‘In Crowd’                                                       A Personal Touch                    personalization
                                                    This world is tech-savvy and interconnected. New                             This world is overshadowed by consumer demands.
                                                 businesses find creative ways to seamlessly connect the                            Consumers call the shots, and entrepreneurial
                                                 world and everything in it. User experience is paramount                       innovators rise to meet changing needs / expectations
Scenarios




                                                                            Internet of    Aerial Wireless    Do-It-Yourself       3D Printing       Cyber Threats           e-Commerce    Customization
 Future




                                                   eLearning
                                                                              Things          Devices          Consumers




                                                Leap Frogging             Collaborative                        Demand for         Shifting Retail     Augmented           Broadening
                                                                                           Crowdsourcing                                                                                    Gamification
                                                 Technology               Consumption                         Sustainability        Footprint           Reality          Customer Base
Opportunities
Themes and




                                                                                                                       Desire for new,
                                                                                                                      untested brands

                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                                     Print                                 8
      Executive Summary

                                        Finally, the team examined the future needs of postal customers and how
                                        the Postal Service could build on its existing strengths to meet these needs

                                        Pivot Points have been designed to systematically brainstorm ideas for growth opportunities that are relevant
                                        to a company’s business.
      Table of Contents




                                        Guiding Principles
                                        Growth opportunities into adjacent and new spaces that are built off of competitive advantages of the existing business have
                                        the highest potential value because (1) projected cash flows are higher; and (2) business risk is lower. Growth opportunities
                                        built off of strengths (as opposed to those that mitigate weaknesses) also have a higher potential value.

                                        Categories
                                        There are generally five categories of competitive advantages from which a company grows:
      Methodology




                                        1. Customer access. Use access to existing customers to provide more goods / services.
                                           e.g., Amazon’s Marketplace, Kindle, and Zappos acquisitions

                                        2. Brand Permission. Use the Postal Service’s brand reputation to expand current boundaries.
                                           e.g., Best Buy’s Geek Squad leveraged brand equity in electronics expertise

                                        3. Core Strengths. Use core competencies (skills / technologies) and core assets (tangible and intangible) to give
                                           the organization a unique advantage and add value.
                                           e.g., Honda’s competencies at small engine technology expanded into motor cars, motorcycles, and lawn machinery
Scenarios
 Future




                                        4. Infrastructure. Utilize world class infrastructure unique to the Postal Service.
                                           e.g., McDonald’s investment in Chipotle, scaling it quickly through real estate development infrastructure

                                        5. Supplier and Partner Synergies. Strengthen supplier and partner relationships to pursue new customer
                                           channels / products.
Opportunities




                                           e.g., Staples acquisition of Corporate Express leveraged buying power
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                            Print                       9
      Executive Summary
                          Future
                          Scenarios
                                                                       Future Scenario Outlines
                                                                                                                                     Focus on established,
                                                                                    From Our Family to Yours                            trusted brands
                                                                                                                                                                                                    All Eyes on YOU




                                                                                                                                             Consumer Brand Preferences
                                                                        A world in which…                                                                                 A world in which…
      Table of Contents




                                                                         Products are associated with certified, trusted brands                                           Products are customized to individual preferences using big data
                                                                         Customers find safety in numbers and known entities                                              Customers see a product in a store, buy a tailored version online,
                                                                         Companies are forced to practice responsible business and                                         and have it delivered to their door
                                                                          make innovative partnerships to maintain trusted brand status                                    Customers feel connected to stories of who makes products
                                                                         Technology is widespread in use: the internet is free for all                                     and where they come from
                                                                          and shared networks with built-in credibility can provide a seal                                 Companies with large, established brands thrive on providing
                                                                          of approval that may ultimately make or break a business                                          “small” experiences, use behavior-based advertising, and grow
                                                                         Government is forced to play monopoly roles to better                                             through partnerships and acquisitions
                                                                          serve communities                                                                                Technology enables e-commerce to explode; allows use
                                                                        Mood: Comfort, Collective, Responsible                                                              of big data and analytics to predict what customers want
                                                                                                                                                                           Government bolsters regulations for consumer protection
                                                                       Growing sharing          Patterns of Mass Consumption                                              Mood: Tailored, Credible, Distinguished                   Increasing
                                                                       and collaboration                                                                                                                                       customization and
                                                                                                                                                                                                                                personalization
      Methodology




                                                                                              The ‘In Crowd’                                                                                       A Personal Touch
                                                                        A world in which…                                                                                 A world in which…
                                                                         Products are shared and “smart” (connected via internet)                                         Products are niche, tailored, and continuously evolving
                                                                         Customers are concerned about the greater good; they worry                                       Customer demands are constantly changing, driving industry trends
                                                                          about the environment and are driven to do something about it                                    Companies that rapidly prototype, have strong customer
                                                                         Customers organize into DIY communities and form “makers                                          feedback loops, and develop consumer-driven offerings dominate
                                                                          movement” guilds                                                                                  the marketplace; they invest in high-speed manufacturing
                                                                         Companies use alternative, integrated channels to reach                                           of customized items
                                                                          a variety of customer groups                                                                     Technology advances inspire a more automated world
                                                                         Technology allows for crowd-sourcing everything — from delivery                                   (including 3D printing) where there is an app for anything
                                                                          to funding and even innovation; virtual currencies enable trade                                   an individual may want
Scenarios




                                                                          and make transacting in communities easier                                                       Government reduces regulations and takes a laissez-faire
 Future




                                                                         Government invests in, sponsors, or certifies new products                                        approach to economic development
                                                                          and brands to reach groups of communities                                                       Mood: Novel, Fickle, Adventurous
                                                                        Mood: Fledgling, Do-It-Yourself, Communal
                                                                                                                               Desire for new, untested brands
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                                                                  Print                                      10
      Executive Summary



                                        Future Scenario | “All Eyes on You”
                                         MOOD: Tailored, Credible, Distinguished

                                                                               September 30, 2024 — this is a world in which established brands are thriving. They
                                                                               do so by continuing to renew and evolve their portfolios as tailoring to target
      Table of Contents




                                                                               segments. Companies evolve through strategic partnerships and acquisitions in order
                                                                               to strengthen their brand and offer niche, innovative goods and services. In
                                                                               2016, financial analysts warned that the “acquisition bubble,” under which WhatsApp,
                                                                               Harry’s, and Birchbox were all acquired by established brands, would pop — but the
                                                                               acquisition market is stronger than ever, up 3 percent in Quarter 1 of 2024. For their
                                                                               part, consumers are willing to share data with businesses and government as it fuels
                                                                               the overarching desire for a more streamlined and personalized experience.
      Methodology




                                         This has manifested itself in a variety of ways: from “smart sensors on baby’s clothes indicating health” for parents of
                                         newborns and toddlers to “smart-heart watches” to monitor senior citizen’s overall health and heart activity. Big business is
                                         thriving and working closely with government as the trusted source for data protection and identity validation. Gone are the
                                         days of multiple usernames and passwords as biometric identifiers have replaced disaggregated log-in systems and more
                                         basic two-factor authentication. This serves to increase the relevance of the Federal Government’s role in consumer needs
                                         and identity protection; regulations are continuously evolving and big business is being forced to adapt accordingly. Overall,
                                         businesses are aware of the desire for a unique and tailored experience from their consumers and are shifting their
                                         strategies from behavioral to experience oriented.
Scenarios
 Future




                                          Brick and mortar stores have given way to a more interactive, multi-channel package that might
                                          include lifestyle blogs and updates, strategic kiosk or pop-up locations and personal-shopper
                                          recommendations. The demand for customization is not restricted to goods — services are very
                                          much included in the consumer expectation. Ultimately, this world is dominated by large
                                          brands catering to the opinionated consumer.
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                       Print                        11
      Executive Summary



                                       Deepen the Scenario                                              All Eyes on You
                                       In this scenario, what are the major trends across these dimensions?
      Table of Contents




                                                                       Social             Technological                  Scenario Overview Notes

                                            Changing retail footprint           Spread of technology                 N/A
                                                                                  (democratization of technology)
                                            Strong brand loyalty
                                             and recognition                     Intuitive login
                                            Customization of goods              Biometric authentication
                                             and services
                                                                                 Big data collection and analysis
                                            Consumer driven
      Methodology




                                                                  Industry                 Government                                 Other
                                          Omni-channel consumer                 Government transparency
Scenarios




                                                                                                                       N/A
 Future




                                           engagement                             required
                                          Changing retail footprint             Government’s enhanced role
                                                                                  in data protection
                                          Customization of goods
                                           and services                          Government driving regulation
                                          Partnerships and acquisitions         Evolving regulation
Opportunities
Themes and




                                          Rapid response to changing            Depend on government to
                                           regulations                            regulate, and adapt to regulation



                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                              Print                12
      Executive Summary


                                        Deepen the Scenario                                                All Eyes on You
                                        In this scenario, what are the impacts to the following customer groups?
      Table of Contents




                                                     For individual customers…            For small business customers…                 For enterprise customers…




                                             …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?

                                               Customization                            How do they operate with big              Need for some regulation
                                                                                          enterprise and government?                 and clarity
                                               Maintain “smart,” healthy lifestyle
                                                                                         Complexity                                Acquisitions are critical
      Methodology




                                                   …how have their needs changed?                                                    to survival
                                                                                         Quest for stability
                                               Consumer expectation around                 …how have their needs changed?             …how have their needs changed?
                                                variety and access for goods
                                                and services                             Need for greater clarity regarding        Enhanced agility regarding
                                                                                          regulations and enterprise                 policy / regulations
                                               Urgency related to delivery
                                                                                          interaction
                                                                                                                                    Regulation is conceded to the
                                               Belief that privacy and security
                                                                                         Ward off acquisition; channel              government
                                                needs will be addressed by
                                                                                          to work with other small and
Scenarios




                                                governments                                                                         Support / align / acknowledge
 Future




                                                                                          medium enterprises;
                                                                                                                                     need for small business
                                               Sense of community is missing             collaborative
                                                                                                                                     innovations
                                                                                         Level playing field
                                                                                                                                    Enterprises learn to work better
                                                                                         Need to understand consumer                with the government
                                                                                          experience
                                                                                         Greater customer expectations
Opportunities
Themes and




                                                                                          for security and privacy




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                 Print                        13
      Executive Summary


                                        Implications to the Postal Service                                                                All Eyes on You

                                                How would the Postal Service leverage its    How would the Postal Service leverage its      How would the Postal Service leverage its
                                                  customer access in order to serve           brand permission in order to serve             core competencies and assets in
                                                         the needs identified?                        the needs identified?                   order to serve the needs identified?
      Table of Contents




                                               Link every physical address to an            The Postal Service is associated                Turn post office buildings into
                                                email address permanently                     with public trust to help facilitate data        community centers / hubs
                                                (Need: variety of access                      security service                                 (Need: sense of community)
                                                and convenience)                              (Need: privacy and security)
                                                                                                                                              Subscription to house data for
                                               Work across government agencies              eLockbox (privacy and convenience)               small customers (Need: small
                                                to validate citizen identity —                                                                 businesses lack resources to
                                                Postal Service, Internal Revenue                                                               collect and manage big data)
                                                Service, and Social Security
                                                                                                                                              Leverage excess physical space
                                                Administration (Need: Enhanced
                                                                                                                                               (Need: small businesses need to
      Methodology




                                                security management)
                                                                                                                                               decrease overhead)




                                                How would the Postal Service leverage its    How would the Postal Service leverage its
                                                   infrastructure in order to serve           supplier and partner synergies in                    Transformational Ideas
                                                         the needs identified?                 order to serve the needs identified?


                                              Leverage core infrastructure in               Seamless experience across                      Driverless delivery
Scenarios
 Future




                                               partnership with additive manufacturing        the value chain                                  (Need: convenience
                                               (Need: customization and convenience)          (Need: tailored advertising)                     and immediacy)
                                              Fill empty delivery trucks with
                                               return cargo
                                                                                                                                              Centralized, shared service —
                                               (Need: speed of delivery / convenience)                                                         e.g., mediate labor complaints
                                              Serve as a centralized location                                                                 (Need: coordinate
                                               to meet, innovate, and work together                                                            government regulations)
                                               (Need: small businesses to connect)
Opportunities
Themes and




                                              Government access at local post office
                                               (Need: work better with government)




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                      Print                             14
      Executive Summary

                                        Future Customer Vignette — All Eyes on You

                                        After seeing how popular his friend’s custom Kick sneakers were, Derrick logs
                                        into the company’s website to design his own pair. He spends about 30 minutes
                                        creating various designs through a sleek web interface. However, as a graduate
                                        student on a limited budget, he hesitates about the price.
      Table of Contents




                                        Kick began offering fully customized products last month to shore up its market
                                        lead, taking advantage of reduced manufacturing costs and forming a division to
                                        design and monitor the consumer experience. The company’s new automated
                                        analytical software calculates that Derrick meets two key parameters: he is a
                                        loyal brand advocate and an “influencer” within his large social network online.
                                        Due to the time he spent designing shoes and his purchase history, the software
                                        concludes a personalized coupon could close the sale and potentially create more business.
                                        Like Kick, the Postal Service has taken advantage of reduced costs in customization and automation, creating a
                                        cloud-based network linked to its in-house digital printers. The Kick website sends a one-time order to the
      Methodology




                                        Postal Service for a personalized mail piece: a two-dimensional rendering of the exact shoe Derrick designed
                                        online, with a coupon on the back. Within minutes, the custom mail piece — one of thousands the Postal Service
                                        will process this day — is printed and sorted for delivery.
                                                                                        The next day, Derrick is surprised to find in his mail a picture of the
                                                                                        very shoes he designed. Seeing a two-dimensional approximation
                                                                                        of the shoe has a powerful effect, and the coupon convinces him
                                                                                        to purchase the shoes. He scans the mail piece with his phone to
Scenarios




                                                                                        make the purchase. Within a matter of days, Kick manufactures
 Future




                                                                                        the shoes, the Postal Service delivers them, and Derrick is
                                                                                        wearing his new Kicks.
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                Print                        15
      Executive Summary


                                       Future Scenario | “A Personal Touch”
                                         MOOD: Novel, Fickle, Adventurous
                                                                                September 30, 2024 — this is a world in which automation enables e-commerce to
                                                                                explode. Seventy-eight percent of consumers are expected to do their holiday
      Table of Contents




                                                                                shopping virtually this December, up from 47 percent 10 years ago. New apps
                                                                                emerge every few hours and provide an increasingly customized consumer
                                                                                experience. With the rise of new, unknown brands, advertising content and even
                                                                                spam is on the rise. As a result, the government is forced to play a more active role
                                                                                in consumer protection, bolstering regulations and oversight activities.
                                                                                New market entrants adopt a lean start-up mentality to meet constantly changing
                                                                                consumer preferences. In an effort to replicate the aura of a new brand, some
                                                                                established companies are unveiling sub-brands to capture customer’s attention
      Methodology




                                                                                with novel, unknown names.

                                         As new brands and businesses compete for customers, content has become the differentiator in the market. Customization,
                                         on the other hand, is now relatively inexpensive due to established technologies such as 3D printing and is no longer a key
                                         differentiator for businesses. Lower and middle class segments can afford the customized experience, expanding
                                         companies’ customer base. Brick and mortar locations are either replaced by “pop-ups” — mobile, alternate channels — or
                                         transform each customer’s experience the moment they walk in the store by
                                         optimizing store layout and the way an individual interacts in it. What started as video
Scenarios




                                         game-based interactive tools such as the Wii have emerged into full-scale augmented
 Future




                                         reality experiences: consumers now don sensory suits which enable them to
                                         experience a retail store virtually from anywhere, walking the store, touching products
                                         uniquely assorted for them, and even tasting or smelling samples. Ultimately, the
                                         consumer is king in this scenario. They call the shots. And entrepreneurs rise
                                         to meet ever-changing needs and expectations.
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                      Print                        16
      Executive Summary

                                       Deepen the Scenario                                           A Personal Touch
                                        In this scenario, what are the major trends across these dimensions?


                                                                       Social              Technological             Scenario Overview Notes
      Table of Contents




                                             Fickle customers                   Universal                       N/A
                                             Consumer empowerment               Mobile
                                                                                 Next-generation
                                                                                 Flexible
                                                                                 Democratized manufacturing
                                                                                 Omnichannel communication
      Methodology




                                                                   Industry                  Government                          Other

                                          Consumer focus                        Development of new privacy      N/A
Scenarios




                                                                                  standards / tools
 Future




                                          Nimble, agile
                                                                                 Consumer protection oriented
                                          Omnichannel communication
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                         Print                 17
      Executive Summary

                                       Deepen the Scenario                                                  A Personal Touch
                                        In this scenario, what are the impacts to the following customer groups?
      Table of Contents




                                                      For individual customers…            For small business customers…                 For enterprise customers…




                                              …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?

                                                Work-life integration                    Work-life integration                     Work-life integration
                                                Ease of use                              Ease of use                               Ease of use
      Methodology




                                                Comparison shopping                      Location still matters                    Battle for talent
                                                 and quality, price
                                                                                          Understanding trends,                     Customer segmentation
                                                                                           niche needs                                (behavior-based)
                                                    …how have their needs changed?        Unburden some regulations                 Social media marketing

                                                Expectation of customization                                                        Mobile, flexible work space

                                                Less brand loyalty                         …how have their needs changed?             …how have their needs changed?

                                                Standardized transparent privacy
Scenarios




                                                                                          Low fixed costs, scalable                 Big data  focused analytics
 Future




                                                Instant accessibility                    Short-lived business model                Flexible production models
                                                Less concerned about privacy             More funding options                      Optimizing the human
                                                 (opt-in)                                                                             and automated worlds
                                                                                          Access to data aggregators
                                                                                                                                     Ability to exploit
                                                                                                                                      size / economies of scope
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                             Print                             18
      Executive Summary

                                       Implications for the Postal Service                                                        A Personal Touch

                                               How would the Postal Service leverage its   How would the Postal Service leverage its   How would the Postal Service leverage its
                                                 customer access in order to serve          brand permission in order to serve          core competencies and assets in
                                                        the needs identified?                       the needs identified?                order to serve the needs identified?
      Table of Contents




                                                Sampling feedback loop                      Secure digital messaging                   Government concierge
                                                                                                                                          services
                                                On-demand 3D printing                       Identity / anonymous
                                                                                              preference management                      Streamlined cross-border
                                                                                                                                          services
                                                                                                                                         Ease of use
                                                                                                                                         Small business / logistics
                                                                                                                                          concierge services
      Methodology




                                               How would the Postal Service leverage its   How would the Postal Service leverage its
                                                  infrastructure in order to serve          supplier and partner synergies in                 Transformational Ideas
                                                        the needs identified?                order to serve the needs identified?

                                                Innovation showrooms                        Temporary use businesses                  N/A
Scenarios




                                                Streamlined returns                         Microwarehousing
 Future




                                                 processes / two-way flows
                                                                                             Just-in-time printing
                                                Anytime, anywhere delivery                   and delivery
                                                Short-term leases for pop-up                Data analytics for
                                                 businesses and spin-offs                     small business
                                                Local crowdfunding                          Local crowdfunding
Opportunities
Themes and




                                                Microloans                                  Microloans




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                               Print                               19
      Executive Summary

                                        Future Customer Vignette — A Personal Touch

                                                                           The Carlson brothers are looking to use their work experience in the music
                                                                           industry to start their own customized headphone company. They have found a
                                                                           way of designing earbuds and other headphones tailored to individual consumers
                                                                           using images of their heads and ears. The Carlson brothers do not have the
                                                                           capital to build a factory, and instead of contracting to an overseas plant, they
      Table of Contents




                                                                           have designed the products to be produced by advanced 3D printers.
                                                                          To that end, they have joined Moving Makers, a program cosponsored by the
                                                                          Postal Service, the Small Business Administration, and a group of private venture
                                                                          capital firms aimed at helping individuals start small businesses. The program
                                        provides end-to-end support for small businesses, such as the Carlson brothers’, where entrepreneurs can use
                                        equipment, access data, or interact face-to-face with federal and local officials in post offices to:
                                        ■■Register their business in cooperation with state and local government.
      Methodology




                                        ■■Produce products in limited quantities using 3D printers in post offices.
                                        ■■Identify target markets through an aggregated data analytics subscription, including such factors as median
                                          income and prevailing interests by ZIP Code.
                                        ■■Market to select segments with direct mail, including using digitally interactive features, and other channels.
                                        ■■Use the Postal Service’s e-commerce concierge suite to receive cost-effective,
                                          time-sensitive shipping logistics support, with an emphasis on supply-chain management,
Scenarios
 Future




                                          cross-border logistics, tracking, dynamic routing, reusable boxes, and two-way shipping
                                          labels to enable easy returns.
                                        Moving Makers delivers different levels of infrastructure, providing basic marketing,
                                        manufacturing, and logistics needed to incubate startups. As an entry point for government
                                        interactions, it simplifies regulatory compliance with every level of government.
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                  Print                     20
      Executive Summary


                                             Future Scenario | “The In Crowd”
                                              MOOD: Fledgling, Do-It-Yourself, Communal

                                                                                          September 30, 2024 — this is a world in which technology integrates
                                                                                          communities’ experiences and preferences with new and untested businesses.
      Table of Contents




                                                                                          What historically were community centers, strip malls, and even libraries are
                                                                                          now “experience centers.” The centers, sponsored by state and local
                                                                                          governments, allow communities to interact with new technologies, ideas, and
                                                                                          businesses that cater to the respective communities’ needs and interests, such
                                                                                          as 3D printers and Massive Open Online Courses. The “Internet of Things” is
                                                                                          now a reality — so much so that the broadband infrastructure can’t keep up
                                                                                          with the demand for smart, connected products and services.

                                              Much like Korea before them, Brazil, Russia, India, China, and African countries have leap frogged into the digital
      Methodology




                                              age by leveraging aerial wireless connections as opposed to laying fiber optic cable. This inspires the use of truly global
                                              crowd-sourcing. Further, companies are relying on a digitally savvy workforce and alternate channels to reach a variety of
                                              customer groups. On the consumer side, there is an overarching sense of community and concern for the greater good.

                                                                          This is an action oriented population that proactively engages businesses and government
                                                                          to support their campaign for wellbeing. For example, consumers not only worry about the
                                                                          environment, they do something about it — same goes for immigration issues, caring for
                                                                          the elderly, and improving the U.S. education system. This mentality fuels do-it-yourself
Scenarios
 Future




                                                                          communities that take care of their own by sharing resources — from power tools to camping
                                                                          equipment — thereby radically reducing the number of such goods while increasing the
                                                                          utilization of what is made. It has also inspired new groups, for example “Mom’s for Healthier
                                                                          School Snacks,” to emerge with a strong collective voice and lobby companies and
                                                                          governments to serve their cause.

                                              “Smart Cities” are emerging where knowledge communities turn the traditional city set-up upside down to better use space
Opportunities
Themes and




                                              and transform big data into smart data. Ultimately, this world is dominated by new businesses finding innovative
                                              ways to seamlessly connect the world and everything that’s in it.

                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                          Print                        21
      Executive Summary

                                       Deepen the Scenario                                          The ‘In Crowd’
                                        In this scenario, what are the major trends across these dimensions?


                                                                       Social            Technological                Scenario Overview Notes
      Table of Contents




                                            Sharing economy and                 Global, enhanced               Everything is local
                                             collaborative consumption            technological connectivity     Common good wins out over
                                                                                  (aerial wireless broadband)     highly individualized goods
                                            Sustainability
                                                                                 From big to smart data          and services
                                            Crowdsourcing solutions
                                            Groupthink (may be trending
                                             towards “communes”)
      Methodology




                                                                  Industry                Government                             Other

                                          Do-it-yourself (DIY)                  Citizen empowerment             Public-private partnerships
Scenarios
 Future




                                          Less customized products              Open government                 Global boundaries
                                           and services                                                            are dissolving
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                         Print                   22
      Executive Summary

                                         Deepen the Scenario                                                 The ‘In Crowd’
                                         In this scenario, what are the impacts to the following customer groups?
      Table of Contents




                                                        For individual customers…           For small business customers…                 For enterprise customers…




                                               …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?

                                                  Good government                         Less government (i.e., regulation         More government
                                                                                            that may stifle innovation)                (i.e., regulations that protect
                                                  Security and safety
                                                                                                                                       them from the unfair advantage
                                                                                           Small business customers still
      Methodology




                                                  Access to resources                                                                 posed by small business
                                                                                            driven by demand
                                                   and infrastructure                                                                  start-ups)
                                                  Education
                                                                                             …how have their needs changed?              …how have their needs changed?
                                                  Cities that are designed to be
                                                   more “communal” rather                   More global as                            Greater need to lure reluctant
                                                   than individual                           technology improves                        DIY consumers
                                                                                            Community shapes the
                                                     …how have their needs changed?
                                                                                             market and not vice versa
Scenarios




                                                  Greater need for sustainability
 Future




                                                   because the effects of climate
                                                   change can be soon
                                                  Sharing diminishes need
                                                   for suppliers
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                             Print                              23
      Executive Summary

                                        Implications for the Postal Service                                                             The ‘In Crowd’

                                                How would the Postal Service leverage its   How would the Postal Service leverage its       How would the Postal Service leverage its
                                                  customer access in order to serve          brand permission in order to serve              core competencies and assets in
                                                         the needs identified?                       the needs identified?                    order to serve the needs identified?
      Table of Contents




                                                  Host the “ZIP Code Facebook” to           Collect data for businesses about              Leverage consumer-to-consumer
                                                   enable community to share and              consumers using brand permission                shipping network to facilitate
                                                   talk on a common forum (trust)             of trust                                        sharing of resources
                                                  Leverage obligation to delivery           Using augmented reality to                     Offer government services at
                                                   everywhere to connect fragmented           understand how consumers                        post offices
                                                   communities                                interact with mail pieces and
                                                                                                                                             Leverage delivery network to
                                                                                              giving or selling data back to
                                                  Market for enterprise customer on                                                          “recycle for good”
                                                                                              enterprise customers
                                                   location-specific packaging                                                                (old cell phones, ink cartridges)
                                                                                                                                             Use empty space on postal trucks
      Methodology




                                                                                                                                              to transport other things
                                                                                                                                              (e.g., contents of a moving truck)


                                                How would the Postal Service leverage its   How would the Postal Service leverage its
                                                   infrastructure in order to serve            supplier and partner synergies                      Transformational Ideas
                                                         the needs identified?                    in order to serve the needs?


                                                  Leverage physical post offices as         Delivery in communal living                    N/A
Scenarios




                                                   community centers / places for             centers: more collaboration and
 Future




                                                   sharing goods and services                 shared deliveries via big data
                                                                                              (one truck not three – FedEx, DHL,
                                                  Use underutilized warehouse
                                                                                              Postal Service)
                                                   space to store and ship goods
                                                   faster and to cut down on
                                                   emissions — microwarehousing
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                    Print                               24
      Executive Summary

                                        Future Customer Vignette — The In-Crowd

                                        Min and Sarah created the perfect kitchen design with in-house consultants at
                                        KASE, a German furniture company. They are on a budget and want to complete
                                        the installation themselves. Unfortunately, they do not have a reciprocating saw
                                        that they will need to help demolish the existing structure. They know purchasing
      Table of Contents




                                        a reciprocating saw is an additional expense and do not foresee the need to use it
                                        again in the future. Upon checkout at KASE, they are offered the option to rent a
                                        number of tools for a low daily fee. They can pick up the tool in-store or at a local
                                        post office or parcel locker on their way home. If the tools are currently in use,
                                        then one can be shipped to them via the Postal Service when it becomes available. Upon completion of the project,
                                        users can affix a pre-printed return label to the tool and place it in a Postal Service parcel locker that is convenient to
                                        them. It will go back to KASE or directly to another consumer in the queue.

                                        In an era in which technological and communications capabilities allow collaborative consumption of almost any
                                        item, retailers like KASE offer tool lending, allowing occasional do-it-yourself consumers to access a variety of tools,
      Methodology




                                        especially those necessary to install the very items they sell in their stores. The option appears automatically upon
                                        purchase of products, either online or in-store. Users pay either a subscription or a per-use fee. In the end, it allows
                                        the retailers, with the help of Postal Service logistics and infrastructure, to enable their customers to complete a
                                        wider variety of tasks and with it, purchase a broader range of products.
Scenarios
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                    Print                        25
      Executive Summary


                                          Future Scenario | “From Our Family to Yours”
                                           MOOD: Comfort in the Collective, Responsible, Sharing is Caring

                                                                               September 30, 2024 — this is a world in which trusted brands are embraced by not
                                                                               just a single customer but by a group or “community.” Companies do not thrive without
      Table of Contents




                                                                               a social network seal of approval. In turn, consumers find safety in known groups of
                                                                               people and businesses they trust. All consumers — young, old, impoverished and
                                                                               privileged — are connected, but they only communicate with the people, social
                                                                               networks, and companies they trust. Governments and private
                                                                               companies are investing billions of dollars in cyber security, but
                                                                               hacker garages continue to pop up and privacy paranoia
                                                                               prevails. Congress extended the mandate of the Consumer
                                                                               Financial Protection Bureau (CFPB) to cover data security as
      Methodology




                                                                               consumer protection is threatened by cyber threats.

                                           Technology is easier to use and more accessible and as a result is used by elderly and immigrant populations. Communities
                                           of people easily connect online and in-person to crowd-source ideas, share products and services, and collectively
                                           communicate with companies — forming the basis of a shared economy. The relevance of community is demonstrated by
                                           the fact that 30 of the Fortune 100 companies have credited their survival over the last 10 years to building lasting
                                           connections with communities. Companies practice responsible business to keep communities passionate about their
                                           brand. For example, companies have developed supply chain networks that provide value to all actors and make social and
Scenarios
 Future




                                           economic issues central to long-term strategies. Despite a rebounding economy, consumers demand low prices, higher
                                           quality products, and convenience — forcing businesses to innovate and collaborate to meet these needs. Ultimately, this
                                           world is community-centric, forcing established companies to collaborate to retain consumers’ trust.
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                     Print                        26
      Executive Summary

                                       Deepen the Scenario                           From Our Family to Yours
                                       In this scenario, what are the major trends across these dimensions?


                                                                       Social             Technological                   Scenario Overview Notes
      Table of Contents




                                            Social “clans” develop              Networks are ubiquitous             Dramatic market changes
                                            Interest and affinity, not          DIY cottage industry fabrication    Referral-based marketing model
                                             geography, define “community”
                                                                                 Ease of communication               Challenge of making
                                            Consumer collaboration                                                    personalization meaningful
                                            Cultural fragmentation                                                    to groups

                                            Self-selected clubs of                                                   Price is still important
                                             interest groups                                                          Make good products
      Methodology




                                            Crowd-sourcing product design




                                                                 Industry                  Government                                Other

                                          Consumer collaboration                Government needs to                 Human power focus
                                                                                  protect individuals
Scenarios




                                          Part-time                                                                  Privacy
 Future




                                           specialization / freelancing          Government is a facilitator
                                                                                                                      Information overload
                                                                                  and an enabler
                                          Disaggregated
                                                                                                                      Fear of loss of control and
                                           business function
                                                                                                                       over-information
                                          Social responsibility
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                 Print                  27
      Executive Summary

                                        Deepen the Scenario                                         From Our Family to Yours
                                        In this scenario, what are the impacts to the following customer groups?
      Table of Contents




                                                       For individual customers…           For small business customers…                 For enterprise customers…




                                              …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?   …how are their needs the same (as 2014)?

                                                Want products that meet a need           Extreme personalization                   Still portfolios of customers
                                                                                           to group needed                            but portfolios of many groups
                                                Extreme personalization
      Methodology




                                                 to group needed                          Respond to specialization                 Want exclusive content
                                                                                           request of the group                       for groups
                                                    …how have their needs changed?
                                                                                          In or out with new target groups
                                                Want products that meet                                                               …how have their needs changed?
                                                                                          Still portfolios of customers but
                                                 a group’s needs                                                                     Fear erosion of brand
                                                                                           now portfolios of specific groups
                                                Fewer deep relationships                                                            Concerned with power
                                                                                            …how have their needs changed?
                                                 with select companies                                                                of consumer
                                                                                          Greater fear of reviews
                                                Team mentality
Scenarios




                                                                                           and customer opinions                     Values are a part of branding
 Future




                                                Loss of individual importance                                                       Sub-brands and partnerships
                                                                                          Small businesses are the
                                                                                           same technology wise as                    to cater to groups
                                                                                           big businesses
                                                                                                                                     Rise of the virtual group
                                                                                          Want to find influencers
                                                                                                                                     “Tupperware” party by group
                                                                                          New intimacy with customers
                                                                                                                                     Risk of consumer terrorism
Opportunities
Themes and




                                                                                          Keep focus on happiness
                                                                                                                                     Keep focus on happiness
                                                                                           as reviews are critical



                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                             Print                             28
      Executive Summary

                                        Implications for the Postal Service                                             From Our Family to Yours

                                                How would the Postal Service leverage its   How would the Postal Service leverage its    How would the Postal Service leverage its
                                                  customer access in order to serve          brand permission in order to serve             core competencies and assets
                                                         the needs identified?                the needs identified in your scenario?       in order to serve the needs identified?
      Table of Contents




                                                 Matching preference lists                  Co-brand with large businesses             Go from moving things to moving
                                                                                              to go to specific groups                    trust between entities
                                                 In-person identity enterprise
                                                                                             Postal Service-approved or                 Physical element
                                                 Opt-in to marketing groups by
                                                                                              -verified groups, businesses,               to digital community
                                                  subject or interest
                                                                                              or products
                                                 Certifying and identifying groups
                                                                                             Trustmark for companies
      Methodology




                                                How would the Postal Service leverage its   How would the Postal Service leverage its
                                                   infrastructure in order to serve          supplier and partner synergies in                  Transformational Ideas
                                                         the needs identified?                order to serve the needs identified?
Scenarios




                                                 Company representative                     Next-day print jobs for customers          Identity for individuals on websites
 Future




                                                  at your door                                                                            that rely on trust, such as Craigslist
                                                 Microwarehouse for companies
                                                 Physical access
                                                  for government agencies
                                                 Paper affiliation products
                                                  for groups
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                Print                                29
      Executive Summary

                                        Future Customer Vignette — From Our Family to Yours

                                                                                Alejandra wanted to order the Daffodil diaper bag made by Cosmo
                                                                                Products due to rave reviews from Fresno Moms Tell All (FMTA). This
                                                                                popular local website provides information for new mothers, lobbies local
                                                                                government on behalf of mothers and children, and reviews an array of
      Table of Contents




                                                                                products geared toward this segment. Receiving the coveted “four strollers”
                                                                                rating can mean a boom for local sales. When Cosmo sent the demo
                                                                                diaper bag out to the FMTA reviewer, they also sent fifty bags to a Fresno
                                                                                Postal Service microwarehouse, repurposed from unused local post office
                                                                                space. When Alejandras’s order came through, Cosmo then notified the
                                                                                Postal Service of the sale, a clerk attached a mailing label to one of the
                                                                                preboxed diaper bags, and it was on her doorstep later that day.

                                        In a time when new startups are looking to create a foothold in the marketplace for their unknown products
                                        and services, established communities, either local or national, can serve a valuable role. An endorsement by
      Methodology




                                        a community entity like FMTA can provide a huge local boost for sales, but even more important in an age of
                                        interconnected communities, serve as a jumping-off point for sales nationally. The Postal Service can serve some of
                                        these young companies by providing logistical or communications infrastructure.
Scenarios
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                               Print                      30
      Executive Summary
                          Themes and                                   Key themes and insights from trends exercise across all scenarios
                          Opportunities


                                                                                      Millennials impact across all trends, including technological / industry / social
      Table of Contents




                                                                                      Shift of power to consumer
                                                                                      Rise of collaboration and increased breadth of collaboration
                                                                                      Increased relevance of public trust
                                                                                      Evolution / response by government to social, industry, and technology trends
                                                                                      Significance of brand and personal connection
                                                                                      Employees still relevant in consumer-focused industries
                                                                                      Need for industry to be proactive outside of core business
                                                                                      Big data at the heart of evolution to “smart” (cities / phones / existence) 
                                                                                       Internet of Things
      Methodology




                                                                                      Face-to-face interaction still relevant and important in business
                                                                                      Industry, as opposed to consumer, propelling some enhanced services
                                                                                       (i.e., same-day delivery)
                                                                                      “Phygital” blending the physical and digital through augmented reality and
                                                                                       3D printing
                                                                                      Continuing tension between privacy and convenience
Scenarios
 Future
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                       Print               31
      Executive Summary

                                         Needs and expectations for future individual consumers, small businesses,
                                         and enterprises across the scenarios

                                               Customer Group                                   Needs Identified in the Workshop by Customer Group

                                                                        Demand convenience in services and “experiences”          Request better work / life integration
      Table of Contents




                                                                        Require ease of use in products and services              Are interested in extreme personalization
                                                                        Expect speed of delivery                                  Crave a synchronized user experience
                                                                        Are concerned about personal / digital security            (e.g., “Internet of Things” or cloud technology)

                                                 Individual
                                                                         and privacy                                               Desire for shared and collaborative goods
                                                                        Expect to be instantly connected to access                 and services
                                                 Consumers               information, people, products, and services               Aspire for cities to be designed to meet communal
                                                                        Continue to need access to resources                       and individual needs
                                                                         and infrastructure                                        Are devoted to a sense of community through sharing
                                                                        Want to easily compare good / services                     or belonging to interest groups
      Methodology




                                                                         (via price and quality)                                   Have an appetite for “smart,” connected
                                                                                                                                    healthy lifestyles

                                                                        Maintain low fixed costs to grow new, innovative          Seek out “influencers” that will skyrocket /
                                                                         products / services at scale                               exponentially grow the business
                                                                        Focus on serving niche groups of individuals              Need amenable regulation that does not stifle
                                                    Small               Provide stellar customer service and quality products      innovation and easy to use government processes
                                                                                                                                    (a streamlined approach)
                                                  Businesses
                                                                         otherwise online communities will post bad reviews —
                                                                         ultimately hampering small businesses’ ability to grow    Grow through capital investments
Scenarios




                                                                        Creatively compete with enterprises on incorporating      Partner or co-brand with established service providers
 Future




                                                                         analysis of big data in products / services                to appear as trusted and secure
                                                                        Require access to low-cost data aggregators

                                                                        Rely on a more “do-it-yourself” culture to continue to    Place more emphasis on customer segmentation
                                                                         make large profits while providing services that           to target individuals or communities
                                                                         customers demand                                          Acquire niche companies to continue to provide a
                                                Enterprises             Attract and develop flexible and adaptive talent           “big firm with a small feel”
Opportunities
Themes and




                                                                         through “work / life integration”
                                                                        Foster culture of innovation within workforce to stay
                                                                         relevant and meet consumers’ needs

                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                        Print                             32
      Executive Summary
                                        A number of cross-cutting themes emerged from the workshop
                                        outputs related to customer needs and expectations

                                                          Individual                            Small Business and Enterprise Needs
                                                       Consumer Need(s)             Cross-Cutting Themes in Response to Individual Consumers
      Table of Contents




                                                                                  Cobrand with trusted organizations to stay relevant and appeal
                                           Security and Privacy
                                                                                   to community / shared groups

                                                                                  Take advantage of falling costs of automation and customization by reorganizing
                                                                                   supply chains / logistics
                                                                                  Differentiate products and services based on content
                                                                                  Become more globally focused
                                                                                  May need to rely on a “do-it-yourself” culture to continue to make profits while
                                           Convenience | Ease of Use |Speed of     delivering on consumer needs
      Methodology




                                           Delivery | Instant Accessibility
                                                                                  Foster innovation within workforce to be able to respond to consumer demands
                                                                                  Maintain low fixed costs to grow new, innovative products and services at scale
                                                                                  Simplify consumer interfaces for ease of use and to make it easy for consumers
                                                                                   to differentiate between price and quality of goods and services
                                                                                  Be transparent with product or service information

                                                                                  Use big data and technology to provide customized, personal experiences
                                           Personalization                        Employ behavior-based advertising to customize marketing to individuals or groups
Scenarios




                                                                                  Place more emphasis on customer segmentation to target individuals or communities
 Future




                                                                                  Build trust with individual consumers and online review sites by taking social
                                           Sense of Community
                                                                                   responsibility seriously

                                           Access to resources
                                                                                  Establish partnerships to optimize retail footprint
                                           and infrastructure
Opportunities
Themes and




                                           Work / Life Integration                Create flexible working environments




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                           Print                       33
      Executive Summary

                                        The Postal Service can leverage its assets to address
                                        future customer needs and expectations

                                          Pivot Points: There are five categories of competitive advantage from which the Postal Service can meet future
                                          customer needs and expectations: 1) Customer Access; 2) Brand Permission; 3) Core Strengths; 4) Infrastructure;
                                          and 5) Supplier and Partner Synergies.
      Table of Contents




                                                                                                             Host the “ZIP CODE” Facebook to enable customers to share
                                                                                                              and communicate via a common forum
                                                                             Need: Two-way, trusted
                                                                                                             Take advantage of the obligation to deliver everywhere
                                                                             communication feedback loops
                                                                                                              to connect communities
                                                                                                             Deliver shared goods across households and communities

                                          1. Customer Access                 Need: Enhanced security
                                                Use access to existing                                       Work across government agencies to validate a citizen’s identity
                                                                             management
                                                customers to provide
      Methodology




                                                more goods / services
                                                                                                               Link physical address to an email address
                                                                                                               Provide on-demand 3D printing services
                                                                             Need: Ease of access
                                                                                                               Supply enterprise customers with on location-specific packaging
                                                                             and convenience
                                                                                                               Enable marketing groups to opt-in to targeted advertising
                                                                                                                by subject or interest


                                                                                                             Provide secure digital messaging
Scenarios




                                                                                                             Facilitate data security service
 Future




                                                                                                             Be a third-party, trusted service provider to collect “anonymous”
                                          2. Brand Permission                                                 data for businesses about consumers
                                                Use the Postal Service                                       Use augmented reality to understand how customers interact
                                                brand reputation to expand   Need: Security and Trust         with mail pieces and sell information to enterprises
                                                current boundaries                                           Cobrand with trusted businesses to build customer loyalty
                                                                                                              with specific groups; this would enable a business to be
                                                                                                              “certified” and give the Postal Service credibility of working
Opportunities
Themes and




                                                                                                              with impactful businesses
                                                                                                             Use Postal Service brand to approve / certify businesses
                                                                                                              or products

                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                 Print                            34
      Executive Summary

                                        The Postal Service can leverage its assets to address future customer
                                        needs and expectations (continued)
                                                                                                                Play the role of a government concierge in areas where the
                                                                                                                 Postal Service is the only federal agency representative
                                                                               Need: Streamlined services       Offer government services at Point of Sale
                                                                               and ease of use                  Provide seamless, easy to use cross-border mailing
                                          3. Core Strengths                                                      and shipping services
      Table of Contents




                                                Use core competencies                                           Serve as a small business / logistics concierge
                                                (skills / technologies)                                         Turn post office buildings into community centers / hubs
                                                and core assets            Need: Sense of community             Be the “physical,” local element to a digital community
                                                (tangible and intangible)
                                                to give the Postal Service Need: Recycle for                    Use first-mile intake network to offer recycling drop off services
                                                a unique advantage and add environmental sustainability          for old cell phones or ink cartridges
                                                value
                                                                                                                Facilitate a “consumer-to-consumer” shipping network to share
                                                                           Need: Share goods across              goods and resources
                                                                           geographic areas and speed           Use reverse logistics to take advantage of empty space on postal
                                                                           of delivery / convenience             trucks to transport items on the back-end of a delivery
      Methodology




                                                                                                                Provide subscription service to house data for small businesses
                                                                                                                Take advantage of excess physical space to support small business
                                                                               Need: Decrease overhead           ventures through “showrooms” or spaces to test products
                                                                               for small businesses             Give short-term leases to pop-up businesses
                                          4. Infrastructure                                                     Enable local crowd-funding platforms
                                                Utilize world class
                                                infrastructure unique to the   Need: Customization
                                                                                                                Use postal hubs for microwarehousing and manufacturing
                                                Postal Service                 and convenience
Scenarios




                                                                                                                Provide easy returns services providing two-way flows of
                                                                               Need: Streamlined services
 Future




                                                                                                                 information
                                                                               and ease of access               Deliver mail to a customer anywhere, anytime

                                                                               Need: Reduce overhead            Open excess physical space to “partners”
                                          5. Supplier and                      costs for small businesses        (small businesses and nonprofits)
                                             Partner Synergies                 and non-profits                  Enable local crowdfunding platforms
                                                Strengthen supplier and                                           Provide “just-in-time” printing and delivery
Opportunities




                                                partner relationships to                                           Deliver data analytics insights to small businesses
Themes and




                                                                                                               
                                                                               Need: Speed of delivery,
                                                pursue new customer                                               Explore possibilities of driverless delivery (24/7 vehicles on road)
                                                                               convenience and customization
                                                channels / products                                               Enable a seamless “experience” across the value chain through
                                                                                                                   tailored advertising (partner with advertisers)

                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                                                           Print                          35
      Executive Summary
      Table of Contents
      Methodology




                                                                       U.S. Postal Service Office of Inspector General
                                                                                    1735 N. Lynn Street
                                                                                    Arlington, VA 22209

                                                                                 Telephone: 703-248-2100
                                                                                     www.uspsoig.gov

                                                                       For media inquiries, contact Agapi Doulaveris
Scenarios




                                                                                Telephone: 703-248-2286
 Future




                                                                                adoulaveris@uspsoig.gov
Opportunities
Themes and




                          The Postal Service Customers of the Future
                          Report Number RARC-WP-14-014
                                                                                                                         Print   36
